U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jermaine Isaac Ross v. United States of America,
S.Ct. No. 20-5404

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 14,
2020, and placed on the docket on August 19, 2020. The government’s response is due on
September 18, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 19, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5404
ROSS, JERMAINE ISAAC
USA

M. ALLISON GUAGLIARDO
ASSISTANT FEDERAL PUBLIC DEFENDER
400 NORTH TAMPA STREET
SUITE 2700
TAMPA, FL 33602
813-228-2715
ALLISON_GUAGLIARDO@FD.ORG
813-228-2562(Fax)

